      Department of Homeland Security





       USCG Must Improve the Security and Strengthen
               the Management of Its Laptops




OIG-13-93                                        May 2013

                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov




                                     May 29, 2013

MEMORANDUM FOR:              Rear Admiral Robert Day
                             Chief Information Officer
                             United States Coast Guard

FROM:                        Frank W. Deffer
                             Assistant Inspector General
                             Office of Information Technology Audits

SUBJECT:                     USCG Must Improve the Security and Strengthen the
                             Management of Its Laptops

Attached for your action is our final report, USCG Must Improve the Security and Strengthen
the Management of Its Laptops. We incorporated the United States Coast Guard’s formal
comments in the final report.

The report contains seven recommendations aimed at improving the laptop program’s
overall effectiveness. Your office concurred with all recommendations. As prescribed by
the Department of Homeland Security Directive 077-01, Follow-Up and Resolutions for
Office of Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion date
for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will
be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact Chiu-Tong Tsang, Director,
Information Security Audit Division, at (202) 254-5472.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents

   Executive Summary............................................................................................................. 1

   Background ........................................................................................................................ 2

   Results of Audit ................................................................................................................... 4

              Actions Taken To Enhance Laptop and Wireless Security ...................................... 4

              Laptop Acquisition and Inventory Management Controls Need Strengthening .... 6

              Weak Laptop Security Controls Put USCG Data at Risk ........................................ 12

              Recommendations ................................................................................................ 17

              Management Comments and OIG Analysis .......................................................... 18

   Appendixes
              Appendix A:          Objectives, Scope, and Methodology............................................ 20 

              Appendix B:          Management Comments to the Draft Report ............................... 22 

              Appendix C:          Major Contributors to This Report ................................................ 25 

              Appendix D:          Report Distribution ........................................................................ 26 


   Abbreviations
              CGOne                 Coast Guard One Network
              DHS                   Department of Homeland Security
              FY                    fiscal year
              IT                    information technology
              NPFC                  National Pollution Funds Center
              NIST                  National Institute of Standards and Technology
              OIG                   Office of Inspector General
              PII                   personally identifiable information
              SFLC                  Surface Force Logistics Center
              SOC                   Security Operations Center
              TISCOM                Telecommunication and Information Systems Command
              USCG                  United States Coast Guard
              USGCB                 United States Government Configuration Baseline

www.oig.dhs.gov                                                                                                                  OIG-13-93 

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   The use of laptop computers with built-in wireless Internet features has increased the
   mobility and productivity of the Federal workforce. However, the popularity of laptops
   has also increased the risk of theft and unauthorized disclosure of sensitive data at
   Federal agencies. As of November 2012, the United States Coast Guard (USCG) reported
   more than 15,000 laptop computers in its inventory. These laptops are used by USCG’s
   military personnel and civilian employees to perform their job functions both in the
   United States and abroad.

   Our overall objective was to determine the effectiveness of USCG’s efforts to protect its
   laptop computers and controls implemented to safeguard its laptops and wireless
   networks and devices from potential exploits. We reviewed USCG’s policies and
   procedures for managing its laptop inventory. In addition, we reviewed the
   effectiveness of configuration management and technical controls implemented to
   protect the sensitive information processed by and stored on selected laptops.

   USCG has taken actions to govern, track, and secure its laptops. For example, USCG has
   deployed a component-wide inventory database to account for its property, including
   laptops. Additionally, USCG has centralized the configuration and patch management of
   its standard laptops. USCG has also established policies and procedures for securing
   standard laptops and defining the authorized use of wireless devices, services, and
   technologies at the component.

   USCG needs to improve its laptop acquisition and inventory management practices, and
   strengthen laptop security controls. Specifically, it needs to improve its laptop
   recapitalization program to eliminate excess quantities of unused laptops. In addition, it
   should reduce the acquisition of non-standard laptops, which represent a significant
   portion of the inventory. Non-standard laptops are acquired outside of the
   recapitalization program, and generally do not meet USCG security standards. Having
   large numbers of non-standard laptops that lack adequate security may compromise the
   integrity and confidentiality of USCG data and systems. Finally, USCG must improve the
   accountability of its laptop inventory and address deficiencies in implementing the
   required DHS configuration settings, deploying of security patches to its laptops timely,
   and developing and implementing procedures to erase and render sensitive data stored
   on laptop hard drives unrecoverable.

   We are making seven recommendations to USCG. The component concurred with all
   recommendations and has begun to take actions to implement them. USCG’s responses
   are summarized and evaluated in the body of this report and included, in their entirety,
   as appendix B.
www.oig.dhs.gov                                1                                        OIG-13-93
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Background
   USCG, one of the five armed forces in the United States and the only military branch
   within the Department of Homeland Security (DHS), has a mission to protect the public,
   the environment, and our nation’s maritime economic interests. As of March 2013,
   USCG comprises more than 92,000 active-duty service members, civilian employees,
   reservists, and auxiliary personnel who work as a responsive military force of maritime
   professionals both at home and abroad.

   The mobility provided by laptop computers with built-in wireless Internet features has
   increased the productivity of the Federal workforce. However, the popularity of laptops
   across the Federal Government has also increased the risk of theft and unauthorized
   disclosure of sensitive data. To assist the component in accomplishing its mission, USCG
   personnel use both desktop and laptop computers to perform their assigned duties. As
   of November 2012, more than 15,000 laptops were reported in USCG’s inventory.
   These laptops are used by USCG personnel while they are on temporary duty at a
   different location, teleworking, on travel, or on vessels.

   The use of Institute of Electrical and Electronics Engineers 802.11x wireless technology is
   also becoming increasingly popular throughout the Federal Government.1 Wireless
   networks extend the range of traditional wired networks and can offer Federal agencies
   many benefits in improving employee productivity and flexibility. However, wireless
   networks and devices also present security challenges, such as physical protection over
   wireless devices, eavesdropping, and unauthorized deployment of wireless networks.

   In August 2005, we reported deficiencies in USCG’s efforts to implement effective
   controls to protect its networks.2 Specifically, we identified a rogue, or unauthorized,
   wireless access point operating at a USCG facility. In August 2008, we identified system
   vulnerabilities and areas of USCG’s noncompliance with DHS configuration settings on
   network perimeter security.3 In December 2012, we reported that USCG could not
   ensure that personal property was efficiently reutilized or properly disposed of to
   prevent unauthorized use or theft. In addition, we determined that USCG did not have
   adequate policies, procedures, and processes to identify, screen, reutilize, and properly
   dispose of excess personal property.4

   1
     The 802.11x (e.g., 802.11 a, b, g, and n) standards developed by the Institute of Electrical and Electronics 

   Engineers are commonly used for transmission specifications on wireless local area networks. 

   2
     Improved Security Required for U.S. Coast Guard Networks, August 2005 (OIG-05-30).

   3
     Enhanced Configuration Controls and Management Policies Can Improve U.S. Coast Guard Network 

   Security, August 2008 (OIG-08-82).

   4
     Identification, Reutilization, and Disposal of Excess Personal Property by the United States Coast Guard, 

   December 2012 (OIG-13-19).

www.oig.dhs.gov                                          2                                                  OIG-13-93
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



   The Office of Financial Policy and Systems (CG-84), which is part of USCG Headquarters’
   Planning, Resources, and Procurement Command (CG-8), is responsible for the overall
   management of the component’s personal property. CG-84 develops and implements
   policies, procedures, as well as deploying systems for effective property management.
   In addition, commanding officers, officers-in-charge, and unit-level supervisors may
   designate Accountable Property Officers who are responsible for maintaining
   accountability, management, use, and control of property within the specified units they
   support. (Figure 1 presents an organizational chart.)

   Figure 1. USCG Headquarters Organizational Chart




   The Command, Control, Communications, Computers, and Information Technology
   Command (CG-6), which is part of USCG Headquarters, leads the Security and
   Information Assurance program to safeguard the component’s information systems.
   The Telecommunications and Information Systems Command (TISCOM), which is part of
   CG-6, is responsible for centralizing the procurement, configuring, issuing, and providing
   information technology (IT) support of USCG’s standard laptops.5 However, local units


   5
     Standard laptops are Microsoft Vista-based machines that are centrally managed by TISCOM and
   configured with certain security settings to provide the majority of USCG users with access to CGOne and
   IT resources.
www.oig.dhs.gov                                       3                                               OIG-13-93
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   can obtain waivers to procure and manage non-standard laptops for uses that fall
   outside of the scope of standardized laptops. Non-standard laptops are used primarily
   by participants of the Common Access Control Remote Access System program while at
   home, offsite, or connecting from a location where ethernet cable Internet connections
   are not available.6 Non-standard laptops have also been deployed to facilitate the use
   of special-purpose software, such as disability assistance tools and access to social
   network websites to aid in maritime recovery operations.

   Currently, USCG has not authorized wireless network connections to CGOne. However,
   local commands have deployed wireless networks that are provided by commercial
   Internet service providers for morale, education, and other public information purposes.
   While USCG is pilot testing the wireless local area network feature on its standard
   laptops, users with non-standard laptops can connect to CGOne remotely through a
   virtual private network connection over a wireless network.7

   Results of Audit
   Actions Taken To Enhance Laptop and Wireless Security

   USCG has implemented an inventory management process to account for and safeguard
   its laptops. Specifically, USCG has implemented the following inventory management
   controls:

       •	 Developed Commandant Instruction M4500.5C, Personal Property Management
          Manual, for the proper use, safekeeping, and disposal of the component’s
          personal property.8

       •	 Implemented an USCG-wide integrated property accountability system to keep
          track of the component’s personal property.




   6
     As of January 2013, more than 10,000 USCG military and full-time employees were enrolled in the
   Common Access Card Remote Access Service program which grants authorized users remote access to
   Coast Guard One Network (CGOne), USCG’s wide area network that connects various information systems
   and local area networks across the component enterprise.
   7
     Wireless adapters attached to laptops enable connectivity to a wireless local area network, which
   provides multiple users access to IT resources within a geographical area.
   8
     USCG defines “personal property” as any Federal property, except buildings, land, and structures, with
   an estimated useful life of more than two years, such as aircraft, vessels, boats, vehicles, trailers, major
   electronics systems, general purpose equipment, small arms, and computers.
www.oig.dhs.gov                                         4	                                               OIG-13-93
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


       •	 Adopted unit-level policies and procedures for managing inventory records,
          performing inventory reviews, and ensuring that laptops are returned when a
          military member or an employee is transferred to a new unit.

   As part of our audit, we used a laptop equipped with wireless scanning software to
   identify unauthorized networks that could be attributed to USCG. Our scans did not
   identify any unauthorized wireless networks at selected locations. In addition, USCG has
   taken the following actions to safeguard the sensitive data stored on and processed by
   its laptops and wireless networks and devices:

       •	 Developed Commandant Instruction M5500.13C, Security and Information
          Assurance Manual, to define security and information assurance policies for
          USCG information systems and Commandant Instruction 2010.2A, Use of
          Unclassified Wireless Devices, Services, and Technologies, for the authorized use
          of wireless devices, services, and technologies.

       •	 Deployed a host-based security system to strengthen security controls and
          prevent unauthorized access to information stored on the standard laptops
          connected to CGOne. The host-based security system was effective in thwarting
          our attempt to gain unauthorized access to information stored on selected
          standard laptops.

       •	 Encrypted hard drives to protect sensitive USCG data stored on standard laptops.9

       •	 Implemented a process to detect attempts to connect unauthorized wireless
          access points and devices to CGOne. In 2012, USCG detected and took quick
          remediation actions to respond to 16 attempts to connect unauthorized wireless
          networks or devices to CGOne. In addition, USCG is implementing a technical
          solution to automatically block unauthorized wireless access attempts.

   Despite the actions taken by USCG to strengthen its inventory and configuration
   management controls, improvements are needed to ensure the security of its laptops
   and the sensitive data they process and store. Specifically, USCG must evaluate the
   effectiveness of its standard laptop recapitalization program and improve the



   9
    Encryption is a technique that uses an algorithm and a password to code and scramble data to prevent
   sensitive information from being read without proper authorization. When encryption is applied, an
   algorithm transforms plaintext into a coded equivalent known as ciphertext for transmission or storage.
   The coded text is subsequently decoded (decrypted) at the receiving or retrieval end and restored to
   plaintext.
www.oig.dhs.gov                                       5	                                              OIG-13-93
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   management oversight of its laptop inventory.10 Further, USCG needs to address
   deficiencies in reporting lost and stolen laptops, implementing the required Federal and
   DHS security control settings on laptops, and establishing procedures to erase and
   render sensitive data stored on laptop hard drives unrecoverable.

   Laptop Acquisition and Inventory Management Controls Need Strengthening

   USCG needs to improve its laptop acquisition and inventory management practices, and
   strengthen laptop security controls. Specifically, it needs to improve its laptop
   recapitalization program to eliminate excess quantities of unused laptops. In addition, it
   should reduce the acquisition of non-standard laptops, which represent a significant
   portion of the inventory. Non-standard laptops are acquired outside of the
   recapitalization program, and generally do not meet USCG security standards. As a
   result, having large numbers of non-standard laptops without adequate security may
   compromise the integrity and confidentiality of USCG data and systems. Finally, USCG
   needs to ensure that lost or stolen laptops are properly reported as security incidents as
   well as addressing the deficiencies in property inventory and headquarters’ oversight of
   laptop inventory management at units.

            Standard Laptop Recapitalization Program Is Not Effective

            USCG needs to manage its laptop recapitalization program more effectively. The
            intent of the laptop recapitalization program is to modernize USCG’s IT
            infrastructure and improve productivity by replacing obsolete equipment.
            However, in September 2012, USCG acquired 3,000 additional laptops when
            more than 2,000 laptops worth more than $3 million were in storage at a
            warehouse.

            Standard Laptops

            As part of its responsibility to manage the USCG IT infrastructure, TISCOM is
            acquiring new standard laptops through a multi-year purchasing contract, which
            was recently renewed through fiscal year (FY) 2017, to recapitalize its servers,
            workstations, and laptops. In September 2011, TISCOM purchased 3,671
            standard laptops for $6.5 million. In September 2012, while most of the laptops
            purchased 12 months prior had yet to be issued, TISCOM acquired 3,000
            additional laptops for $4.4 million. As of December 3, 2012, 1,572 (43 percent)
            of the 3,671 laptops purchased in September 2011 had been issued and 5,099
            total new laptops were awaiting issuance at a warehouse. According to the
   10
     Recapitalization refers to the physical replacement of facilities, aircraft, ships, and mission systems with
   new assets to meet operational requirements more effectively and efficiently.
www.oig.dhs.gov                                          6                                                 OIG-13-93
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


             recapitalization schedule, TISCOM plans to replace the laptops purchased in
             2011 and 2012 in 2014 and 2015, respectively, when most of these laptops have
             yet to be issued and more than 52 percent of USCG’s laptops are older than
             three years. Further, we estimate a laptop with the same processing capabilities
             as those purchased by TISCOM in September 2011 would have cost USCG $290
             less each, or $608,710 in total savings, if purchased today. Figure 2 summarizes
             acquisition and deployment information about the laptops purchased for
             recapitalization.

           Figure 2. Recapitalization Laptop Acquisition and Deployment Information11
                                                                                Laptops     Laptops at
                                                  Date            Date         Issued as    Warehouse
        Description    Qty          Cost
                                                Purchased       Received         of Dec      as of Dec
                                                                                  2012         2012
   Dell E4310             35         $66,150    9/15/2011     12/22/2011               15            20
   Panasonic CF31        366      $1,675,182    9/15/2011     11/15/2011              361              5
   Dell E6510          3,270      $4,806,900    9/15/2011     11/29/2011            1,196         2,074
   Dell E6520          3,000      $4,410,000    9/7/2012      10/24/2012                0         3,000
   Total               6,671     $10,958,232                                        1,572         5,099

             Under USCG’s recapitalization program, when TISCOM designates a standard
             laptop model as eligible for recapitalization, a memorandum is posted on USCG’s
             intranet notifying units that the model may be replaced with a new standard
             laptop. Units may submit a request to TISCOM to obtain the equipment.

             For each standard laptop a local unit adds to their inventory, TISCOM charges
             support costs which include an initial charge of $2,270 for the laptop hardware
             as well as the annual recurring costs of $1,533.91. These fees are also charged
             when a unit decides to replace a non-standard laptop with a new standard
             laptop. Figure 3 summarizes of the costs associated with purchasing an
             additional standard laptop for a unit’s inventory or replacing a non-standard
             laptop through the recapitalization program.




   11
     The Dell E6510 and E6520 laptops are stored together at the warehouse. We estimated the number of
   these laptops deployed and not deployed based on the “first in/first out” shipping method used at the
   warehouse.
www.oig.dhs.gov                                      7                                             OIG-13-93
                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Figure 3. Standard Laptop Support Cost Model

                     USCG Standard Workstation Support Cost Model
                                         $208.81 -
                                         Recurring
                                        maintenance
                                        and support
                        $603.07 -          costs
                        Recurring
                       workstation
                     recapitalization


                                                                         $2,270 -
                                                                       Nonrecurring
                                                                     laptop hardware
                                                                          costs
                     $722.03 -
                     Recurring
                   network usage
                        fee




           Non-Standard Laptops

           As an alternative to requesting new or replacement standard laptops from
           TISCOM, units can purchase and manage non-standard laptops for uses that fall
           outside of the scope of standard laptops. Purchasing non-standard laptops
           allows units to select a preferred model, enable functionality restricted on
           standard laptops, and obtain laptops more quickly. While TISCOM has
           implemented a process to evaluate local units’ requests to purchase
           non-standard laptops, the requirement to submit a waiver request before
           purchasing a non-standard laptop is not being enforced across USCG.

           During our fieldwork, we determined that non-standard laptops are used
           primarily for connecting remotely to user workstations on CGOne. A
           non-standard laptop is procured and managed locally once a purchase request
           has been approved by TISCOM through the Information Technology
           Configuration and Control Board process. Based on our review of purchase
           requests since January 2008, 1,591 requests for non-standard laptops were
           approved, whereas only 1,246 standard laptops were approved. Further, CG-6
           personnel said that additional laptops have been procured outside of the
           Information Technology Configuration and Control Board process for special
           programs and projects.
www.oig.dhs.gov                                  8                                     OIG-13-93

                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



           In many circumstances, support costs associated with recapitalization laptops
           may make them more expensive for units than acquiring their own non-standard
           laptops. For example, a field employee involved in the acquisition of recapitalized
           laptops within his unit noted that he did not understand the pricing model and
           felt that obtaining standard laptops was a hassle. A TISCOM employee
           acknowledged that the issuance of new laptops had not proceeded as quickly as
           planned, as many units preferred to purchase non-standard laptops. Further, a
           TISCOM employee told us that he believes that the recapitalization program did
           not have the support from USCG’s management, as the units were not required
           or encouraged to participate.

           Charging the units high support costs for standard laptops and allowing them to
           purchase non-standard laptops undermines the effectiveness of the
           recapitalization program. As a result, more than 8,200 of the laptops in the
           component’s inventory (52 percent) are older than 3 years, and more than 5,000
           new laptops are awaiting issuance at a warehouse. The prevalence of
           non-standard laptops also exposes USCG to security risks, as these laptops are
           not configured consistently. Figure 4 shows some of the new laptops purchased
           for recapitalization awaiting deployment at the warehouse.

                  Figure 4. Laptops Awaiting Deployment at the Warehouse




www.oig.dhs.gov                                 9                                        OIG-13-93

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           Some Lost or Stolen Laptops Are Not Accounted For or
           Consistently Reported to DHS

           USCG is not accounting for all lost or stolen laptops in its inventory or consistently
           reporting lost or stolen laptops to the DHS Security Operations Center (SOC) as
           security incidents. Specifically, 7 of the 43 laptops that were reported as lost or
           stolen in FY 2012 had not been removed from USCG’s inventory database as of
           November 2012. In addition, USCG only reports stolen laptops that are
           suspected of containing personally identifiable information (PII) to DHS SOC.

           DHS requires components to report significant incidents to DHS SOC within one
           hour after the security event is confirmed as an incident.12 Minor incidents must
           be reported within 24 hours. USCG requires that security incidents be reported
           immediately to the local Information Systems Security Officer, who shall notify
           the Coast Guard Computer Incident Response Team, the respective command,
           and the USCG Information Systems Security Manager of suspected or confirmed
           security incidents. Specifically, USCG’s reporting requirements apply to any
           suspected or confirmed loss of USCG information, whether sensitive or PII.

           Currently, individual users must notify their command when a laptop is lost or
           stolen, and the command in turn notifies CG-84. CG-84 is responsible for
           acknowledging reports of lost or stolen laptops from field units and tracking the
           asset and the conditions under which it was lost, and adjudicating the reports of
           survey. According to a CG-84 official, the Coast Guard Computer Incident
           Response Team is notified of lost or stolen laptops when they are suspected of
           containing PII. The official noted that such reports are handled only from a PII
           perspective. Since DHS SOC does not require components to submit a separate
           form or designate the incidents as lost or stolen, CG-84 does not track all
           incidences of lost or stolen laptops or reflect the missing equipment in the USCG
           inventory database.

           Not reporting the loss or theft of laptops to DHS SOC prevents DHS and USCG
           officials from taking corrective actions to mitigate security risks. Also, it
           precludes DHS and USCG senior officials from knowing the extent of laptop
           security issues and may result in underreported security incidents in DHS’
           FY 2012 Federal Information Security Management Act submission.




   12
     DHS defines a significant incident as a computer security-related incident that represents a meaningful
   threat to the Department’s mission and requires immediate leadership notification.
www.oig.dhs.gov                                       10                                               OIG-13-93
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Headquarters Does Not Review Laptop Inventory Results 


           USCG headquarters does not provide adequate oversight of personal property
           management at USCG units. Specifically, CG-84 does not enforce the
           requirement to have the units conduct annual inventories of sensitive personal
           property, including laptops. Because inventory results are not reported to
           Headquarters, CG-84 may be unaware of deficiencies in property management
           at units. Laptops are of particular importance because they are portable, are
           costly, and store sensitive USCG data.

           We selected 185 laptops from Surface Force Logistics Center (SFLC), National
           Pollution Funds Center (NPFC), TISCOM, the District 8 office, and the Sector New
           Orleans office to determine whether laptops were properly accounted for in
           USCG’s inventory. The results of our review identified instances where USCG’s
           inventory database contained incorrect information, such as serial numbers of
           selected laptops that did not match the inventory records. Since the asset tags
           are not being used at the District 8 and Sector New Orleans offices, we could not
           use them as a means to validate the accuracy of information contained in USCG’s
           inventory database. We were unable to locate 29 of the 185 selected laptops
           (15.7 percent), as shown in figure 5.

                        Figure 5. Results of 2012 Office of Inspector General
                        Laptop Inventory Evaluation
                                              Laptops Laptops Percent
                         Location
                                             Selected Located Located
                         SFLC
                                                30          29      96.7%
                         Baltimore, MD
                         NPFC
                                                45          40      88.9%
                         Arlington, VA
                         TISCOM
                                                60          51      85.0%
                         Alexandria, VA
                         District 8 Office
                                                25          20      80.0%
                         New Orleans, LA
                         Sector Office
                                                25          16      64.0%
                         New Orleans, LA
                         Total                  185        156      84.3%

           USCG requires each unit to conduct a physical inventory of all personal property
           annually. When inventory results indicate that a unit has not complied with the
           component’s inventory policies and procedures, CG-84 is required to develop a
           plan specifying the steps to correct the deficiencies or discrepancies within a
www.oig.dhs.gov                               11                                       OIG-13-93
                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


              specified time. USCG also requires that all personal property be bar-coded or
              otherwise labeled.

              Although NPFC, SFLC, and TISCOM conduct inventories annually, the Sector and
              District 8 offices in New Orleans conduct inventories only when there is a change
              in property custodian. As a result of this practice, most of the laptops at the
              Sector and District 8 offices in New Orleans had not been subject to an inventory
              within the past year. Some laptops had not been inventoried since 2009.

              According to property custodians, the main reason why selected laptops could
              not be located during our fieldwork was that users did not inform them to
              update the inventory database to reflect that assigned laptops had been
              transferred or disposed of. For most of these unaccountable laptops,
              documentation was subsequently provided confirming that the laptop had been
              disposed of or transferred to a different unit.

              USCG units are required to report to CG-84 the total dollar amount of personal
              property that is reported lost, stolen, damaged, or destroyed annually.
              However, when inventories are not conducted to determine whether laptop
              computers are properly accounted for, lost, or stolen, the annual reports
              submitted to headquarters will not contain sufficient information to inform
              headquarters of inventory management deficiencies. Without this oversight,
              CG-84 cannot conduct follow-up to address the deficiencies in the management
              of the laptop inventory.

   Weak Laptop Security Controls Put USCG Data at Risk

   USCG has not implemented effective security controls on its laptops. Specifically, USCG
   has not implemented the required DHS and Federal configuration settings on its
   standard and non-standard laptops. In addition, we identified missing critical and
   high-risk security patches that are more than 6 months old on more than 95 percent of
   standard laptops tested.13 Finally, USCG has not developed procedures to erase and
   render sensitive data stored on laptop hard drives unrecoverable or document the
   execution of this process. Implementing effective security controls on USCG’s standard
   and non-standard laptops will minimize the risk that sensitive information processed by
   and stored on these laptops can be compromised.

   To evaluate USCG’s compliance with United States Government Configuration Baseline
   (USGCB) requirements, we performed vulnerability assessments on 2,114 standard

   13
        Security patches help prevent exploitation of systems by mitigating vulnerabilities in installed software.
www.oig.dhs.gov                                           12                                                OIG-13-93
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   laptops with a USCG-approved Windows Vista image that were connected to CGOne.
   We also evaluated the effectiveness of USCG’s process to deploy security patches on its
   standard laptop computers. Finally, we reviewed selected non-standard laptops to
   determine whether required security controls were implemented.

           Laptops Are Not Properly Configured

           USCG has not configured its laptops with all required USGCB settings, which are
           needed to maintain an effective and standardized baseline of security controls
           on Windows workstations and laptops across the Federal Government.14 The
           following are examples of missing controls we identified from our testing:

                  •	 Telnet, which allows unencrypted communication between two
                     computers where username, password, and subsequent data are
                     transmitted in cleartext, is not disabled on 2,099 USCG laptops. DHS
                     prohibits the use of Telnet.

                  •	 Internet Protocol Version 6 source routing protection is not enabled on
                     2,111 USCG laptops which may allow attackers to obscure the location of
                     their computer and leave USCG unable to identify the source of incoming
                     attacks.15

                  •	 The maximum data retransmission for Transmission Control Protocol is
                     not set on 2,111 USCG laptops, increasing the likelihood of success for a
                     denial-of-service attack.16

           When new standard laptops are deployed locally, the units apply the
           TISCOM-developed Windows Vista image. Of the 343 applicable USGCB settings
           we evaluated on laptops configured with this image, USCG has either
           implemented or granted exceptions for 322, leaving 21 settings out of
           compliance. TISCOM centrally monitors and manages these standard laptops
           connected to CGOne by using Active Directory and System Center Configuration



   14
      In March 2007, the Office of Management and Budget issued M-07-11, Implementation of Commonly
   Accepted Security Configurations for Windows Operating Systems, which requires Federal agencies to
   adopt the federally accepted configurations developed by National Institute of Standards and Technology
   (NIST), Department of Defense, and DHS.
   15
      Internet Protocol Version 6 is a communication protocol used to route traffic over the internet. It was
   designed to replace the aging Internet Protocol Version 4 communication protocol.
   16
      Transmission Control Protocol is a commonly used protocol that allows for the reliable transmission of
   data over a computer network.
www.oig.dhs.gov                                       13                                        	       OIG-13-93
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Manager.17 In September 2010, the DHS Chief Information Security Officer
           approved USCG’s waiver request to exempt the component from implementing
           six USGCB settings. Some examples of approved USGCB exceptions include
           renaming the default Windows Administrator account, setting a user session
           timeout, and disabling a user’s ability to install printer drivers. However, USCG
           could not provide waivers or exceptions to account for the missing 21 (6 percent)
           USGCB settings, or explain why the waivers or exceptions had not been
           submitted to DHS.

           The Office of Management and Budget requires Federal agencies to implement
           USGCB configuration settings on laptops and workstations to standardize and
           strengthen information security across the Federal Government. DHS requires
           components to submit a Waivers and Exceptions Request Form, signed by the
           component Chief Information Security Officer, who acknowledges and accepts
           the risk resulting from the unimplemented controls.

           By not implementing all USGCB controls, USCG cannot ensure that the sensitive
           data processed by and stored on its laptop computers are protected from
           unauthorized access and potential misuse. A compromised standard laptop
           could be used to gain unauthorized access to CGOne and increase the risk that
           security controls could be circumvented.

           Standard Laptops Are Missing Security Patches

           USCG has not updated timely its standard laptops with the latest security
           patches. Our vulnerability scans identified 13 missing critical and high-risk
           security patches that were more than 6 months old for Oracle Java, Adobe
           Acrobat, Adobe Flash, and Adobe Shockwave software on more than 95 percent
           of standard laptops tested. Missing security patches may allow unauthorized
           users to exploit software vulnerabilities and take control of a laptop or gain
           access to sensitive information stored.

           TISCOM is responsible for deploying software patches to all standard laptops
           connected to CGOne within 30 days of the patch release date. TISCOM uses
           System Center Configuration Manager to apply software updates within the
           required timeframe. However, according to TISCOM personnel, some of the
           missing security patches we identified are incompatible with the component’s
           mission critical applications, such as the Core Accounting System, on some


   17
     Microsoft’s System Center Configuration Manager software suite provides centralized management
   capabilities for application delivery, desktop virtualization, device management, and security.
www.oig.dhs.gov                                    14                                            OIG-13-93
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           standard laptops.18 As a result, these patches were not deployed within the
           30-day timeframe as required, and are currently pending deployment until the
           mission-critical applications can be updated to support the patches.

           DHS requires components to mitigate system vulnerabilities by promptly
           installing security and software patches. Security patches protect systems from
           potential exploits and vulnerabilities as they are discovered. DHS SOC publishes
           Information Security Vulnerability Management messages that dictate the
           timeframe in which these patches must be installed.

           Standard laptops remain at risk until the missing critical patches are applied.
           Failure to deploy software patches exposes laptops to risk depending on the
           severity of the vulnerability identified. Malicious software designed to exploit
           vulnerable systems can compromise the integrity of standard laptops. Ensuring
           that software is up-to-date minimizes this risk and protects standard laptops and
           the sensitive information they process and store.

           Standard Configuration Settings Are Not Enforced on Non-standard Laptops

           USCG has not implemented the required configuration control settings on its
           non-standard laptops as required by applicable DHS, Office of Management and
           Budget, and NIST guidance. Non-standard laptops, which represent a significant
           portion of the laptop inventory, are purchased locally and have security controls
           applied at the discretion of unit commanders and individual users. Insufficient
           central oversight has resulted in significant risk to the integrity and
           confidentiality of USCG data contained on these laptops.

           We observed instances where non-standard laptops were missing required
           security controls. For example, our manual review of selected non-standard
           laptops at NPFC and the District 8 office revealed that the required hard drive
           encryption had not been enabled to prevent unauthorized users from gaining
           access to the data stored on the laptop. We determined that USCG was not
           enforcing the use of a strong password policy, nor was it implementing required
           USGCB configuration settings.

           The Federal Information Security Management Act requires Federal agencies to
           develop, document, and implement policies and procedures that ensure
           compliance with the minimally acceptable system configuration requirements


   18
     USCG’s primary accounting system, Core Accounting System, enables the procurement and payment of
   resources such as assets, services, and logistic support.
www.oig.dhs.gov                                    15                                           OIG-13-93
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           determined by the agency. NIST also recommends that agencies develop
           standardized configurations to reduce the labor involved in identifying, testing,
           and applying security patches. DHS requires that component information
           systems comply with its hardening guides for operating systems and
           configuration guides for applications. In addition, DHS requires that information
           stored on a laptop be encrypted if the laptop is used at a residence or on travel.

           Non-standard laptops are only authorized to connect to CGOne through a
           remote desktop connection, and thus are not subject to the centralized,
           network-based system that USCG has in place for managing enterprise wide
           security. As a result, USCG cannot ensure that the non-standard laptops used to
           conduct USCG business and that the data they store are secure and protected
           from potential misuse.

           Procedures to Erase and Render Sensitive Data Stored on Laptops
           Unrecoverable Are Needed

           USCG does not have a process to ensure that sensitive data stored on its laptops
           is rendered unrecoverable before the laptops are transferred or disposed of.
           Specifically, USCG has not implemented procedures to ensure sensitive data
           stored on laptops cannot be recovered. Further, USCG does not document or
           certify execution of this process. When the process to erase sensitive data is not
           consistently performed, there is greater risk that data may be retrieved and
           reconstructed from laptop hard drives.

           Although records are maintained to document execution of the process at SLFC
           and NPFC, the District 8 office, Sector New Orleans office, and TISCOM do not
           maintain documentation. When a laptop is to be disposed of, its hard drive is
           removed to be either physically destroyed onsite or sent to an off-site facility for
           destruction. However, when laptops are transferred to another user or unit in
           USCG or are donated to schools, the methods used to erase data from hard
           drives vary.

           DHS requires components to maintain records of the execution of processes to
           erase data from storage media. Further, Component Chief Information Security
           Officers or Information Systems Security Managers are required to develop and
           implement procedures to erase data from storage media. These procedures
           ensure that any information systems storage medium containing sensitive
           information is erased and rendered unrecoverable before it is disposed of,
           reused, recycled, or returned to the owner or manufacturer.


www.oig.dhs.gov                                 16                                        OIG-13-93

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           When USCG personnel do not erase data from hard drives and record execution
           of the process consistently, they cannot ensure that laptop hard drives
           containing sensitive information have either been destroyed or erased to render
           deleted data unrecoverable. In addition, it is critical that an organization
           maintain records to document what media were destroyed, when and how they
           were destroyed, and the final disposition of the media.

   Recommendations

           We recommend that the Assistant Commandant for Command, Control,
           Communications, Computers, and Information Technology (CG-6):

           Recommendation #1:

           Restrict the purchase of non-standard laptops to those needed to perform
           special operations that cannot be conducted with standard laptops.

           Recommendation #2:

           Implement required USGCB and DHS configuration settings on all USCG laptops
           or follow applicable DHS policy to submit a waiver to acknowledge and accept
           the risk of non-compliance.

           Recommendation #3:

           Resolve the technical incompatibility with mission-critical applications that has
           caused delays in deploying security patches on USCG standard laptops.

           Recommendation #4:

           Evaluate the security risks associated with using non-standard laptops and
           establish a centralized configuration and patch management process according
           to applicable DHS and NIST guidance.

           Recommendation #5:

           Develop and implement documented procedures to ensure that data are erased
           and rendered unrecoverable from laptops before the equipment is disposed of
           or transferred, including the maintenance of records.



www.oig.dhs.gov                                17                                        OIG-13-93

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           We recommend that the Assistant Commandant for Planning, Resources, and
           Procurement (CG-8):

           Recommendation #6:

           Establish procedures to ensure that all occurrences of lost or stolen laptops are
           reported to DHS SOC as security incidents and reflected in the USCG inventory
           database as exceptions.

           Recommendation #7:

           Enforce the requirement to have units submit the results of annual laptop
           inventories to Headquarters and work with units to correct any identified laptop
           inventory management deficiencies.

           Management Comments and OIG Analysis

           USCG concurred with recommendation 1. USCG will draft policy to remove
           non-standard laptops and develop a waiver process for special purpose
           equipment that requires a non-standard laptop.

           We agree that the steps that the USCG plans to take begin to satisfy this
           recommendation. This recommendation will remain open until USCG provides
           documentation to support that planned corrective actions are completed.

           USCG concurred with recommendation 2. USCG will establish a provisioning
           point/process to load USGCB settings.

           We agree that the steps the USCG plans to take begin to satisfy this
           recommendation. This recommendation will remain open until USCG provides
           documentation to support that planned corrective actions are completed.

           USCG concurred with recommendation 3. USCG will resolve the technical
           incompatibility with mission-critical applications.

           We agree that the steps the USCG plans to take begin to satisfy this
           recommendation. This recommendation will remain open until USCG provides
           documentation to support that planned corrective actions are completed.




www.oig.dhs.gov                                18                                        OIG-13-93

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           USCG concurred with recommendation 4. USCG will evaluate security risks and
           establish a centralized configuration and patch management process according
           to applicable DHS and NIST guidance.

           We agree that the steps that the USCG plans to take begin to satisfy this
           recommendation. This recommendation will remain open until USCG provides
           documentation to support that planned corrective actions are completed.

           USCG concurred with recommendation 5. USCG will develop and implement
           procedures to ensure that data are erased and rendered unrecoverable from
           laptops before the equipment is disposed of or transferred, including the
           maintenance of records.

           We agree that the steps that the USCG plans to take begin to satisfy this
           recommendation. This recommendation will remain open until USCG provides
           documentation to support that planned corrective actions are completed.

           USCG concurred with recommendation 6. USCG will require that missing laptops
           be reported to the DHS SOC.

           We agree that the steps that the USCG plans to take begin to satisfy this
           recommendation. This recommendation will remain open until USCG provides
           documentation to support that planned corrective actions are completed.

           USCG concurred with recommendation 7. USCG will place emphasis on laptops
           and other similar items to ensure that they are identified as property and subject
           to policy and processes.

           We agree that the steps that the USCG plans to take begin to satisfy this
           recommendation. This recommendation will remain open until USCG provides
           documentation to support that planned corrective actions are completed.




www.oig.dhs.gov                                19                                       OIG-13-93

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of our audit was to determine whether USCG has implemented effective
   controls to protect the sensitive data stored on and processed by its laptops and
   wireless networks and devices from potential exploits. Specifically, we determined
   whether USCG has implemented (1) an effective inventory management process to
   safeguard its laptop computers, (2) effective controls to protect its laptop computers,
   and (3) effective controls to ensure that sensitive information processed by its wireless
   networks and devices is protected from potential exploits.

   Our audit focused on requirements specified in the DHS Sensitive Systems Handbook
   4300A, United States Government Configuration Baseline, Commandant Instruction
   M4500.5C, Personal Property Management Manual, USCG Commandant Instruction
   M5500.13C, Security and Information Assurance Manual, and Commandant Instruction
   2010.2A, Use of Unclassified Wireless Devices, Services, and Technologies. We
   interviewed selected personnel and management officials from CG-6, CG-8, and at
   selected fieldwork locations. Fieldwork was performed at USCG Headquarters in
   Washington, DC; Sector and District 8 Offices in New Orleans, LA; Surface Force Logistics
   Center in Baltimore, MD; TISCOM in Alexandria, VA; and National Pollution Funds Center
   in Arlington, VA.

   We reviewed USCG policies and procedures for inventory maintenance, incident
   reporting, erasing and rendering data stored on laptop hard drives unrecoverable,
   configuration and patch management, and wireless network security. In addition, we
   conducted vulnerability and USGCB compliance scans using CoreImpact and Nessus on
   2,114 standard laptops running Windows Vista operating system that are connected to
   CGOne. We could not evaluate whether effective controls have been implemented on
   USCG’s wireless networks as the component has not authorized any wireless networks
   to connect to CGOne. However, we used AirMagnet software to determine whether
   unauthorized wireless networks are connected to CGOne. We also performed an
   inventory evaluation of 185 laptops. The laptops identified for our inventory evaluation
   were randomly selected from USCG’s inventory database once we judgmentally
   identified locations for our site visits based on concentration of laptops.

www.oig.dhs.gov                                20                                       OIG-13-93

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security



   We conducted this performance audit between October 2012 and February 2013
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                              21                                       OIG-13-93

                                         OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                  u .s . Department of                 C""""""", Cout Guard              2100 S«.orld Street. S. W., SlOp 724j
                  Homeland Security                    United States                     rW?~ngtbotffc:fl:J
                                                                                         Phonc:'lT02) )72-)j))
                  United States                                                          FIlA: (202) 372-231 1
                  Coast Guard
                                                                                         7501
                                                                                         MAY 1 0 2013
                  MEMO~NDllIM

                  From:                                                       Reply to   Audit Manager
                                                                              Attn of:   Mark Kulwicki
                                                                                         (202) 372-3533
                  To:      F. W. Deffer
                           Assistant Inspector General
                           Office of Infonnalion Technology Audits

                  Subj '   DHS OIG DRAFT REPORT, "USCG MUST IMPROVE THE SECURITY AND
                           STRENGTHEN THE MANAGEMENT OF ITS LAPTOPS"
                  Ref:     (a) OIG Project No. 12-172-ITA-USCG, dated April 10,2013

                  I. This memorandum transmits the Coast Guard's response to the findings and recommendations
                  identified in reference (a).

                  2. The Coast Guard concurs with the report's recommendations.

                  3. lf you have any questions, my point of contact is Mr. Mark Kulwicki who can be reached at
                  202-372-3533.

                                                                 #

                  Enclosure: (1) USCG Response




www.oig.dhs.gov                                                 22                                                               OIG-13-93

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                  UNITED STATES COAST GUARD RESPONSE FOR DHS OIG DRAFT REPORT:
                  USCG MUST IMPROVE THE SECURITY AND STRENGTHEN TOE MANAGEMENT
                  OF ITS LAYfOPS (OIG PROJECT NO. I2-172-ITA-USCG)

                  RECOMMENDATIONS AND USCG RESPONSES

              Recommendation #1: Restricllhepurchase ofnon-standard laptops to those needed to perform
              special operations that cannot be conducted Wilh standard laptops.

              USCG response: Concur. The Coast Guard will draft policy to remove non-standard laptops
              and develop a waiver process for special purpose equipment that requires a non-standard laptop.

              Recommendation #2: Implement required USGCB and DHS configura/jon settings on all
              USCG laptopsor follow applicable DHS policy 10 submit a waiver 10 acknowledge Qnd accept
              the risk 0/ non-compliance.

              USCG response: Concur. The Coast Guard Command, Contro l, Communications, Computers,
              and Information Technology Service Center (C4IT SC) will establish a provisioning
              poinllprocess to load USGCB settings.

              Recommendation #3: Resolve the technical incompatibility with mission-critical applications
              thai has caused delays in deploying security patches on USCG standard laptops.

              USCG response: Concur. The Coast Guard will resolve the technical incompatibility with
              mission-critical applications.

              Recommendation #4: Evaluate the security risks associated with using non-standard laptops
              and establish a centralized configuration and patch management process according
              to applicable DHS and NIST guidance.

              USCG response : Concur. The Coast Guard will evaluate security risks and establish a
              centralized configuration and patch management process according to applicable DHS and NIST
              guidance.

              Recommendation #5: Develop and implemem documented procedures to ensure data is erased
              and rendered unrecoverable from laptops before the equipment is disposed of or
              Transferred, including the maintenance a/records.

              USCG response: Concur. The Coast Guard will develop and implement procedures to ensure
              data is erased and rendered unrecoverable from laptops before the equipment is disposed of or
              Transferred, including the maintenance of records.

              Recommendation #6: Establish procedures to ensure that all OCCUrrences o/Iost or stolen
              laptops are reported to DHS SOC as security incidents and reflected in the USCG inventory
              database as exceptions.

              USCG response: Concur. The Coast Guard will require that missing laptops be reported to the
              DHSSOC.


                                                                                       ENCLOSURE (I)




www.oig.dhs.gov                                              23                                                 OIG-13-93

                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                  Recommendation #7: Enforce the requirement to have unilS submit the results ofanlluallaptop
                  inventories to Headquarters and wOrk with units to correct any identified laptop
                  inventory management deficiencies.

                  USCG response: Concur. The Coast Guard has a property management system in place. The
                  Service will place emphasis on laptops and other similar items to ensure they are identified as
                  property and subject to policy and processes.




                                                            Pagelofl




www.oig.dhs.gov                                                    24                                               OIG-13-93

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Chiu-Tong Tsang, Director
   Mike Horton, IT Officer
   Amanda Strickler, Lead IT Specialist
   Thomas Rohrback, IT Specialist
   Bridget Glazier, IT Auditor
   David Bunning, IT Specialist
   Gregory Wilson, Management/Program Assistant
   Daniel McGrath, Referencer




www.oig.dhs.gov                          25                    OIG-13-93

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Commandant, USCG
   Chief Information Officer, DHS
   Chief Information Security Officer, DHS
   Chief Information Officer, USCG
   Chief Administrative Officer, USCG
   Chief Information Security Officer, USCG
   Director, Compliance and Oversight, DHS OCISO
   Director, GAO/OIG Liaison Office
   Acting Chief Privacy Officer, DHS
   Audit Liaison, CIO, DHS
   Audit Liaison, CISO, DHS
   Audit Liaison, USCG

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  26                        OIG-13-93

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
